Nos. 19-1181
IN THE SUPREME COURT OF THE UNITED STATES
THE ESTATE OF THOMAS STEINBECK, GAIL KNIGHT STEINBECK,
AND THE PALLADIN GROUP, INC.,
vs.

Petitioners,

WAVERLY SCOTT KAFFAGA, as Executor of the
Estate of Elaine Anderson Steinbeck,
PROOF OF SERVICE

Respondent.

I, Nikolina Gurfinkel, do swear that on this date, April 29, 2020, as required by
Supreme Court Rule 29, I have served the enclosed BRIEF OF AMICI CURIAE THE
AUTHORS GUILD INC., DRAMATISTS GUILD OF AMERICA, INC., THE AMERICAN SOCIETY OF
JOURNALISTS AND AUTHORS AND RALPH OMAN IN SUPPORT OF PETITIONERS, on each
party to the above proceeding or that party’s counsel, and on every other person
required to be served, by giving three true copies of same, addressed to each
individual respectively, and enclosed in a properly addressed wrapper, to Federal
Express for Overnight Delivery, postage prepaid.
The names and addresses of those served are as follows:
MATTHEW J. DOWD
Counsel of Record
DOWD & SCHEFFEL PLLC
1717 Pennsylvania Avenue, NW, Suite 1025
Washington, DC 20006
(202) 559-9175
mdowd@dowdscheffel.com
Attorneys for Petitioners
SUSAN J. KOHLMANN
Counsel of Record
JENNER & BLOCK LLP
919 Third Avenue, 38th Floor
New York, NY 10022
skohlmann@jenner.com
Attorneys for Respondent

That on the same date as above, I sent to this Court forty copies of the within
BRIEF OF AMICI CURIAE THE AUTHORS GUILD INC., DRAMATISTS GUILD OF AMERICA,
INC., THE AMERICAN SOCIETY OF JOURNALISTS AND AUTHORS AND RALPH OMAN IN
SUPPORT OF PETITIONERS, via Federal Express Overnight Delivery, postage prepaid.
All parties required to be served have been served.
I declare under penalty of perjury that the foregoing is true and correct.
Sworn to before me on this
29th day of April, 2020.

s/Nikolina Gurfinkel
Nikolina Gurfinkel
ORIGINAL

37718

